                                              Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General
Subject:   INFORMATION: Notification of an Audit of                  Date:   July 26, 2004
           Major Project Cost Estimating Activities
           Project Number: 03M3015M000
  From:    Debra Ritt                                             Reply to
                                                                  Attn of:   JA-40
           Assistant Inspector General
            for Surface and Maritime Programs

    To:    Federal Highway Administrator
           Federal Transit Administrator

           The Office of Inspector General plans to initiate an audit of Federal Highway
           Administration (FHWA) and Federal Transit Administration (FTA) oversight
           of cost estimating activates on major highway and transit projects. The
           objectives of this audit are to: (1) determine frequent factors that cause cost
           estimates to be unreliable, (2) evaluate efforts to improve cost estimating
           guidance, and (3) identify opportunities to improve oversight of project sponsor
           processes and procedures for preparing credible cost estimates.

           We will conduct the audit at FHWA and FTA offices in Washington, D.C.,
           selected division and regional offices, project offices, state highway agencies,
           local transit authorities and other locations to be determined during the audit.
           We plan to begin work the week of August 2, 2004. Peter Babachicos, the
           Project Manager, will contact your audit liaison to arrange an entrance
           conference.

           If I can answer any questions or be of further assistance, please do not hesitate
           to contact me at (202) 493-0331 or call Jim H. Crumpacker, Program Director
           at (202)-366-1420.

                                                  #
